fT

@OCKLE

2311 Douglas Street L ega l B tie f Ss E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefS.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-423

BRIAN KIRK MALPASSO, et al.,
Petitioners,

v.
WILLIAM M. PALLOZZI, in his official
capacity as Maryland Secretary of State Police,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of December, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
BRIAN E. FROSH
Attorney General of Maryland
JULIA DOYLE BERNHARDT*
Chief of Litigation
OFFICE OF THE ATTORNEY GENERAL
200 Saint Paul Place, 20th Floor
Baltimore, Maryland 21202
jbernhardt@oag.state.md.us
(410) 576-7291

Attorneys for Respondent

*Counsel of Record

Subscribed and sworn to before me this 18th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska : Lv  ¢ 2h L, Z
My Commission Expires Nov 24, 2020 .

Notary Public Affiant

 

 

38961
 

 

Attorneys for Petitioners

Paul D. Clement Kirkland & Ellis LLP 202-389-5000
Counsel of Record 1301 Pennsylvania Avenue, NW
Washington, DC 20004

paul.clement@kirkland.com

Party name: Brian Kirk Malpasso, et al.

 
